E-Filed
Court of Appeals
Suzanne C. Johnson,
Clerk of Court
6/21/2019 11:13 AM

SHIRLEY HIRSHAUER

IN THE
COURT OF APPEALS

V.
COA-PET-0501-2018
AQ HOLDINGS, LLC., et al
CSA-REG-2490-2016
& CSA-REG-12212017
(No.14-C-16-010731,
Circuit Court for
Kent County)
ORDER
Upon consideration of the "Emergency Motion
to Reconsider the Order Dated April 16, 2019" filed in
the above entitled case, it is
ORDERED, by the Court of Appeals of
Maryland, that the above pleading be, and it is
hereby, denied.
/s/ Mary Ellen Barbera
Chief Judge
DATE: June 21, 2019

1

/1/0 x gy

E-Filed
Court of Appeals
Suzanne C. Johnson,
Clerk of Court
4/19/2019 12:16 PM
IN THE

SHIRLEY HIRSHAUER

COURT OF APPEALS
V.
COA-PET-0501-2018
AQ HOLDINGS, LLC., et al
CSA-REG-2490-2016
& CSA-REG-1221* 2017
(No.14-C-16-010731,
Circuit Court for
Kent County)
ORDER
Upon consideration of the petition for a writ of
certiorari to the Court of Special Appeals and the
answers filed thereto, in the above entitled case, it is
Ordered, by the Court of Appeals of Maryland,
that the petition be, and it is hereby, denied as there
has been no showing that review by certiorari is
desirable and in the public interest.
Is/ Mary Ellen Barbera
Chief Judge
DATE: April 19, 2019
1

.4fix

gfr3

Circuit Court for Kent County
Case No. 14-C-16-010731

UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
Consolidated Cases

No. 2490
September Term, 2016
SHIRLEY HIRSHAUER
v.
AQ HOLDINGS, LLC

No 1221
September Term, 2017
SHIRLEY HIRSHAUER
v.
AQ HOLDINGS, LLC et al

Leahy,
Shaw Geter,
Salmon, James P.
(Senior Judge, Specially Assigned)
JJ.
1

Opinion by Shaw Geter, J.

Filed December 2018
** This is an unreported opinion, and it may not be
cited in any paper, brief, motion, or other document
filed in this Court or any other Maryland Court as
either precedent within the rule of stare decisis or as
persuasive authority. Md. Rule 1-104

-Unreported Opinion-

The property dispute at the center of these
cases began in 2006 and has generated several
different state court actions in Maryland, as well as in
U.S. Bankruptcy Courts in Maryland and Florida.
Here, Appellant, Shirley Hirshauer, presents two
separate appeals, which we have consolidated for
judicial economy. First, she appeals the dismissal
and grant of summary judgment by the Circuit Court
for Queen Anne County of her counterclaim against
Appellees, AQ Holdings, LLC ("AQ Holdings"); Brooke
Schumm, Esq., attorney for AQ Holdings; and the
Honorable Thomas G. Ross ("Judge Ross") in an
action to sell or, in the alternative, partition property

2

/4/9 )6 /6?

purchased at a judicial sale. Second, Hirshauer
appeals the court's final order directing a courtappointed trustee to sell jointly-owned property in
lieu of partition. Hirshauer presents a number of
questions for review, which we have condensed,
renumbered, and rephrased for clarity:

Appeal No. 2490:1
Was the court's judgment on the Counterclaim
an abuse of discretion in light of Hirshauer's
bankruptcy judgment?
Did the court err in dismissing or, in the
alternative, granting summary judgment on
the counterclaim?

1

Appellant's original questions in Appeal No. 2490

were: 1. Whether the State Court has a right to grant
relief from a Bankruptcy stay which is a matter
committed exclusively to the Bankruptcy court. 2.
Whether the Counter-claim is not barred by res
judicata, collateral estoppel and the doctrine
prohibiting collateral attack on judgment. 3.
Whether the trial court erred in granting the motion
to dismiss and motion for summary judgment.

3

gid

Appeal No 1221:2

2 Appellant's original questions in Appeal No. 1221
were: 1. Did Judge Sweeney or err acting without
jurisdiction. 2. Did Judge Sweeney err not
acknowledging the writs and sale of the farm are
void. 3. Did Judge Sweeney err not taking judicial
notice that Judge Ross, of the QA, we disqualified,
by law and Judicial Cannons, and therefore all Ross'
actions are void. 4. Did Judge Sweeney err holding
the trial in March 2017 without jurisdiction, when
Hirshauer's doctors not showed she was unable to
proceed and the fact ordering a sale in lieu of
partition of the farm when a sale would harm
Hirshauer, Sweeney stated the farm can be
partitioned. 6. Did Judge Sweeney err holding a trial
when the plaintiff was not present, and then allowing
the plaintiff's attorney to be the fact based witness.
7. Did Judge Sweeney err holding a trial and then
not allowing Hirshauer to defend herself because her
defense is under appeal, No. 2490-2016. 8. Did
Judge Sweeney err by ignoring Hirshauer's motion to
declare the ex parte writs of execution are void. 9.
Did Judge Sweeney err ordering a sale of the farm,
per MD Rules 14-107 and 12-401(b). 10. Did Judge
Sweeney err in his memorandum claiming to be able
to predict the future and what is in Hirshauer's mind.
11. Did Judge Sweeney err acting as though AQ
and Hirshauer own the farm when there was no
substantial evidence submitted to him to prove that
the ex part order of August 15, 2006 was valid and
when Hirshauer presented facts from the QA record
that the ex parte order is void by law. 12. Did Judge

4

i4p4 /09

Did the court have jurisdiction to hear these
cases?
Did the court err in holding trial on the
scheduled date?
Did the court err in finding sale in of lieu of
partition of the Property was appropriate?
STATEMENT OF FACTS
A. Events leading to the Counterclaim
In September 2004, Terry Brumwell, Alice Hall
and Elizabeth O'Shea (collectively, the "Clemons"),
along with other family members, filed a complaint
against Shirley Hirshauer alleging wrongful death in
the Circuit Court for Anne Arundel County (the
"Wrongful Death Action"). The Clemons'
grandmother, Geraldine Gray, died of
compressional asphyxia after being pinned between
her mattress and a be railing while living in a senior
living home owned by Hirshauer. Approximately a
week after the suit was filed, for no consideration,
Hirshauer conveyed a forty-seven acre property,

Sweeney err by ignoring Judge Corrigan's final
judgment on appeal which Schumm and his clients
were appellants. 13. Did Judge Sweeney err by not
acknowledging all actions in the recorded judgment
cases, are void as there is not jurisdiction. 14. Did
Church Road, Marydel, Maryland (the "Property")
5

Located in Queen Anne's County at 1211 Busic
Church Road, Marydel Maryland (the "Property") to
her three sons, James Gerben, Jr., Randy Gerben,
and Jason Gerben (collectively, the "Gerbens"), as
joint tenants. The Property's deed was recorded in
December, 2004.
A default judgment was entered in the
Wrongful Death Action in favor of the Clemons on
July 14, 2006 in the amount of $1.2 million. Wanda
Clemons, as the representative of her mother's
estate, was awarded $400,000 and each of Ms.
Gray's children, including the Clemons, were
awarded $100,000 individually. Two days later, the
Clemons, represented by Schumm, filed a complaint

Judge Sweeney err by not acknowledging the
located in Queen Anne's county at 1211 Busic
actions in QA in December 2011 are void by the
doctrine of res judicata and Hirshauer's bankruptcy
discharge injunction. 15. Did Judge Sweeney err not
acknowledging the levies were litigated to a final
judgment in Hirshauer's bankruptcy. Adv Pro No 0800036, 08-00178 and appealed, which were all ruled
in Hirshauer's favor. We address many of the
questions presented by appeal No. 1221 in Section II
of this opinion because determination of such
questions is essential to answering the section
question presented in Appeal No 2490.

6

in the Circuit Court for Queen Anne's County
alleging fraudulent conveyance of the Property,
naming Hirshauer the Gerbens as defendants (the
"Fraudulent conveyance Action"). The Clemons
sought "to void and recover" Hirshauer's transfer to
the Gerbens. The Clemons then recorded their
respective judgment from the Wrongful Death Action
in the Circuit Court for Queen Anne's County in early
August 2006. Shortly thereafter, they filed requests for
writs of execution seeking to immediately levy the
Property to satisfy the judgment (the "Levy Actions").
The writs were issued on August 15, 2006 and January
8, 2007. However, upon receiving notice of the
Fraudulent conveyance Action, the Circuit Court for
Queen Anne's County stayed the writs and
consolidated the cases.
A bench trial was held before Judge Ross on
March 16, 2007, and the matter was held sub curia.
Judge Ross issued a memorandum opinion and
judgment on July 27, 2007, in which he concluded
that "the evidence clearly established that the
transfer was fraudulent." He then voided Hirshauer's
transfer of the Property to the Gerbens (the

7

"Fraudulent Conveyance Judgment"). Judge Ross
found Hirshauer "to be an astute business woman[,]
whose testimony was far less than credible," who
"intended to transfer [P]roperty with the intent to
defraud, delay, and hinder the [Clemons], her
judgment creditors in collection of the debt," and
that "the conveyance occurred after Hirshauer had
notice she was being sued in [the Wrongful Death
Action].
On June 19, 2007, after the bench trial, but
before Judge Ross issued a memorandum opinion
and judgment, the Clemons initiated involuntary
bankruptcy proceedings against Hirshauer in the
United States Bankruptcy Court of the Middle District
of Florida (the "Bankruptcy Court"). After receiving
a suggestion of the bankruptcy filing on September
19, 2004, the circuit court issued an order the
following day, which stayed any writs of execution or
collection proceedings related to the Property as to
Hirshauer. The Bankruptcy Court subsequently found
Hirshauer had not fraudulently conveyed the
Property to the Gerbens.
Four years later, in October 2011, the Clemons
filed a motion requesting an extension of time to sell

8

the Property or, alternatively, an order to instruct the
Sheriff's immediately schedule a sale of the Property.
They asserted that Hirshauer received a discharge in
bankruptcy on July 6, 2011, which ended the
automatic stay. The Clemons motion was granted
on December 26, 2011 in an order (the "December
26, 2011 Order") where Judge Ross "conclude[ed]
that the discharge in bankruptcy of [] Hirshauer
neither discharge[d] her in rem liability nor, in any
way, affect[ed] the personal liability of third parties."
He further found "the judgment liens remain[ed]
effective, and that the bankruptcy proceedings
ha[d] no res judicata effect with respect to the
hiens." Judge Ross also ruled that the Fraudulent
conveyance Judgment was not void due to res
judicata because the judgment liens "were merely
stayed, first by order of [the circuit court], and then
by the bankruptcy proceedings[;]" therefore it was
unnecessary to vacate any order emanating from

In Hirshauer's involuntary bankruptcy proceedings,
the bankruptcy judge found Hirshauer had not
fraudulently conveyed the Property to the Gerbens.
Hirshauer argued this ruling required Jude Ross to find
the Property was not fraudulently conveyed and,
instead, was owned by the Gerbens.
3

9

f/V

Hirshauer's bankruptcy proceeding.3
On January 9, 2012, Hirshauer and the Gerbens
filed a motion to reconsider the December 26, 2016
Order, which was denied. Hirshauer and the
Gerbens then appealed the judgment to this Court
(the "Appeal of the Fraudulent conveyance
Action"). Pursuant to Maryland Rule 8-602(a)(3), this
Court dismissed the appeal as untimely, except as to
the circuit court's denial of the motion for
reconsideration. We then affirmed the denial of the
motion to reconsider.
James Gerben, Jr., on March 27, 2013, filed for
Chapter 13 bankruptcy. Accordingly, Judge Ross
stayed proceedings elated to his one third interest in
the Property. However, on July 10, 2013, Judge Ross
vacated the stay as to the respective interests of
Randy Gerben and Jason Gerben. Thereafter, the
Clemons, through Schumm as counsel, sought a
sheriff's sale of Randy Gerben and Jason Gerben's
interests in the Property. A sheriff's sale was held on
October 29, 2013 and AQ Holdings purchased the
Property.
Following the sheriff's sale, Hirshauer filed ten
documents in the Fraudulent Conveyance Action

10

In opposition to the ratification of the sale of the
Property to AQ Holdings:
Defendants [sic] Motion Requesting the
Honorable Judge Ross Recuse Himself from
these Cases;
Defendants [sic] Opposition to Queen Anne
County's Circuit Court Approval of the
Sheriff's Sale of [the property] Held on
10/29/13;
Line to Honorable Judge Ross Concerning
120 day Levies Expired;
Defendants [sic] Response to Plaintiff's
Response Motion to Various Papers Filed by
[] Hirshauer and James Gerben Relating to
Sheriff's Sale;
Defendants [sic] Response to Plaintiff's Late
Filing for Notification and the Court's
Approval of Notice without Notice to
Defendants;
Defendant's Line Requesting this Honorable
Court not to Ratify the Sale of [the Property]
as the Sale was not Performed per MD Rules
14-202(b)(1) and 14-205(c);

11

Defendant's Request that this Honorable
Court Invite the Attorney General of
Maryland to Intervene Pursuant to 28 U.S.C.
ss2403(b) as to the Question of the
Constitutionality of MD's Prejudgment
Attachment Procedures and to Void the
Writs of Execution Due to Lack of Jurisdiction
of a Florida Resident and All the Issues in this
Motion Including Exhibit A and Void the
Reissuing of the Notice of Ratification;
Line Requesting the Honorable Court to
Recognize Plaintiff's Conceded Maryland
Judgment Remains Viable as to Gerben[s]
Only if [] Hirshauer was Not a Necessary
Party;
Motion not to Ratify the Sale of [the
Property];
Interlocutory Appeal Due to Constitutional
Issues - 5th and 14th Amendments and Lack
of Jurisdiction of This Honorable Court and
Time to Ratify has Passed by Maryland law.

Judge Ross ratified the sheriff's sale of the Property to
AQ Holdings on February 20, 2014 (the "Ratification"),

12

Apx '7

overruling Hirshauer's opposition. Randy and Jason
Gerben's two third interest in the Property was
conveyed by sheriff's deed to AQ Holdings.
Hirshauer and the Gerbens appealed the Ratification
to this Court. Their appeal was dismissed pursuant to
Maryland Rule 8-602(a)(1 ) .0
AQ Holdings filed the present action in the
Circuit Court for Queen Anne's County on February
3, 2016, seeking a sale or, in the alternative, a
partition of the Property held in common by AQ
Holdings and Hirshauer. The case was transferred to
the Circuit Court for Kent County.
Hirshauer filed a counterclaim (the
"Counterclaim") naming as defendants Judge Ross,
Schumm and AQ Holdings. The Counterclaim
alleged the Gerbens were the rightful owners of the
Property; civil conspiracy involving Schumm and
Judge Ross to deny Hirshauer and the Gerbens due

® Md. Rule 8-602(a)(1) provides that this Court may
dismiss an appeal on a motion or by our own
initiative in a variety of circumstances, such as a
party's failure to properly appeal the case or file an
adequate brief or record, or if the case has become
moot. See Hirshauer v. Hall, No. 2657, September
Term 2013.

13

process and recognition of the ruling of the
Bankruptcy Court; the Gerbens' deed could not be
avoided due to the final ruling of the Bankruptcy
Court that found Hirshauer had not fraudulently
conveyed the Property to the Gerbens; the writs
issued to the Clemons were void because the circuit
court lacked jurisdiction in the Fraudulent
Conveyance Action; and Judge Ross, Schumm, and
this Court violated the automatic stay imposed by
the bankruptcy filing of Hirshauer and the Gerbens.
In response, Judge Ross, Schumm and AQ Holdings
each filed a motion to dismiss or, in the alternative,
for summary judgment.
A hearing on the dispositive motions was held
on January 19, 2017, wherein Hirshauer contended
that neither partition nor sale was appropriate. She
argued the writs could not legally be used to levy
the Property as the Fraudulent Conveyance
Judgment was "void because Judge Ross [was]
acting...without jurisdiction;" the Fraudulent
Conveyance Judgment violated the doctrine of res

14

judicata;0 Judge Ross, Schumm, and this Court
violated the automatic stay imposed by the
Bankruptcy Court;© and the writs were in the name
of Hirshauer and those writs cold not levy property
owned by the Gerbens.0
At the conclusion of the hearing, the court
dismissed the Counterclaim, finding the
Counterclaim "fail[ed] to state a viable claim on
which relief can be granted." The court further ruled
the Counterclaim "is barred...as to all Defendants by

Hirshauer stated, "The reason I'm bringing this
action is because Judge Ross is continuing to say I'm
a fraud when I have a final judgment from [the
Bankruptcy Court] saying I'm not a fraud."
Hirshauer claimed that Schumm and Judge Ross
violated the automatic stay during the Fraudulent
Conveyance Action imposed b Hirshauer's
bankruptcy filing. She further claimed that this Court
violated the automatic stay imposed by James
Gerben, Jr.'s bankruptcy filing when we decided the
Appeal of the Fraudulent Conveyance Action.
Hirshauer's position was "joint tenan[cy] was never
broken" because, in order to do so "[one] ha[d] to
give an order saying its[] Hirshauer's property. Then
[one] ha[d] to draw up a new deed with []
Hirshauer's name on it...then [one] can levy...on
[Hirshauer's] property' using the writ in Hirshauer's
name.

15

lac)

res judicata, collateral estoppel and the law of
collateral [attacks] on judgments" because
"[Hirshauer] has either litigated the issues raised or
had the opportunity to do so.
B. Trial on the issue of partition of the Property.
On March 16, 2017, trial was held regarding
AQ Holdings' action to partition or sell the Property.
At the outset, Hirshauer, appearing pro se, requested
a continuance on either of two grounds. First, she
indicated that her defense to partition action was on
appeal, i.e. the claims made within the
Counterclaim, and the court should continue trial
until this court decided the appeal.
Second, Hirshauer informed the court that she
was under the effects of Tramadol, a narcotic
prescribed for pain. Hirshauer requested the court
reschedule the trial because she "[couldn't] think.
[She] [couldn't] remember things. [She was] foggy.
[She didn't] want to get out of bed like somebody
took [her] batteries out. So [she was] not mentally
capable of...defending [her]self or presenting to [the
court] intelligently." Hirshauer presented an
unsigned doctor's note, which stated:

16

/02

I

Shirley Hirshauer is a patient in our office. She is
currently under medical treatment. She is to
be evaluated in 4 to 6 weeks. I advise that the
patient does not go to court at this time until
patient is back to her baseline of health. She is
currently not feeling well and needs to rest
and take medications as prescribed. Please
excuse her from court on Thursday, March 16th.
Thank you for understanding.
Hirshauer told the court she was supposed to have
had medical shots administered to her by her doctor
that day in Florida and added she was to continue
to receive those shots for a period of four to six
weeks. AQ Holdings objected to the continuance, in
part, because AQ Holdings had scheduled a witness
to appear for trial that day. The court denied
Hirshauer's continuance request.
AQ Holdings called as one of its witnesses a
land surveyor, William Nuttle, who identified a survey
of the Property showing its landscape to be
agricultural, wetlands, and forestation. The survey
was subsequently admitted into evidence as well as
land records from the State Department of
Assessments and Taxation ("SDAT") showing the

17

record owner, acreage calculation, real estate
account number, and map of the Property.
According to the SDAT records, the owners of the
Property were AQ Holdings and James Gerben,
which prompted the court to inquire whether
Hirshauer in fact owned the Property. The parties
then stipulated that Hirshauer owned the property for
purposes of the partition action and the court
agreed to subsequently address the issue.
Hirshauer testified in the proceeding and
contended partition, rather than sale of the Property,
was a more appropriate resolution. According to
her, the cremated ashes of her father and brother
had been spread upon a portion of the Property®
and the Gerbens continued to use the Property for
social gatherings.
Following the presentation of the evidence,
the court gave a conditional ruling in favor of
partition of the Property by sale. The court requested
Schumm file a statement of proposed findings of fact
for the court's consideration regarding how Hirshauer

® However, just prior to this statement, Hirshauer
stated, "my dad I buried."

18

Aix /023

came to own the Property. Hirshauer was instructed
to respond to the statement winthin thirty days. On
March 31, 2017, Schumm filed with the court an
affidavit as instructed. Hirshauer did not respond to
the contents of the affidavit.®
The court filed its memorandum opinion ruling
in favor of AQ Holdings on August 9, 2017, and
concluded that "[a] sale of the [P]roperty and a
division of the proceeds on balance would...lead to
less loss and injury to all parties than pursuing the
difficult road of partition under the unique
circumstances of this case." The court found the
Property to be "irregular[,] full of wetlands and
subject to flooding' and 'could with difficulty be
Partitioned on a one-third/two-third basis." However,
the court explained, "given the continued
obstruction that Hirshauer has engaged in where AQ
Holdings['] interests are concerned one can predict

® Instead of responding to the contents of the
affidavit, Hirshauer twice moved to dismiss the case
with prejudice due to Schumm's purported failure to
file the affidavit timely.

19

/dy

That the partition process...would be onerous,
expensive, and lead to years of continued litigation
before any finality is obtained."® The court found
AQ Holdings would likely suffer "loss or injury" due to
Hirshauer's probable court of action, i.e. the process
outlined in Maryland Rule 12-401(c), >> "since the
costs of the partitioning

The court explained:
Given that Hirshauer would likely not agree to
a less arduous partition process the process set
out in Rule 12-401 for the appointment of
commissioners would be required. It can be
expected from the actions taken so far that
the selection process itself would lead to
disputes about who is appointed and one
could expect that the ultimate written report
would be contested by Hirshauer at every turn
and using any vehicle available to her.
Md. Rule 12-401(c) states:
(1) Appointment of commissioners. When the
court orders a partition unless all parties expressly
waive the appointment of commissioners, the court

20

4,K ias

shall appoint not less that three nor more than five
disinterested persons to serve as commissioners for
the purpose of valuing and dividing the property. On
request of the court, each party shall suggest
disinterested persons willing to serve as
commissioners. The order appointing the
commissioners shall set the date on or before which
the commissioners' report shall be filed. The
commissioners shall make oath before a person
authorized to administer an oath that they will
faithfully perform the duties of their commission. If
the appointment of commissioners is waived by the
parties, the court shall value and divide the property.
Report of commissioners. Within the time
prescribed by the order of appointment, the
commissioners shall file a written report. At the time
the report is filed the commissioners shall serve on
each party pursuant to Rule 1-321 a copy of the
report together with a notice of the times within
which exceptions to the report may be filed.
Exceptions to Report. Within ten days after filing
of the report, a party may file exceptions with the

21

4/x /02C,

Process will be substantial and eat into any ultimate
value that may be found for this [P]property."12

clerk. Within that period or within three days after
service of the first exceptions, whichever is late, any
other party may file exceptions. Exceptions shall be
in writing and shall set forth the asserted error with
particularity. Any matter not specifically set forth in
exceptions is waived unless the court finds that
justice requires otherwise. The court may decide the
exceptions without a hearing, unless a request for a
hearing is filed with exceptions or by an opposing
party within five days after service of the exceptions.
12

The court noted that it had the power under

Md. Rule 12-401(c) to allocate the costs of the
partitioning process among the parties. However,
the court found "it can be expected that it may
indeed be difficult to alleviate the dam'age done by
[] Hirshauer's likely actions," compounded with the
"fact that [] Hirshauer's permanent residence is in
Florida makes allocation and collection of costs
even more problematic.

22

la 7

In its determination, the court "factored in []
Hirshauer's claims" that partition was more
appropriate. The court considered the "sentimental
value to [Hirshauer] of maintaining the [P]roperty as a
piece of land that has been in her family...as well as
very vague suggestion that ashes may have been
scattered on the [P] property." However, the court
concluded that these claims were "pretextual and
conjured to prevent ultimate resolution of the
contentious litigation," noting that, "according to
the testimony[, the Property] has laid vacant except
it has been used on occasion by [] Hirshauer's
relatives for sporadic gatherings of a social nature."
DISCUSSION
1. Whether the court's judgment on the
Counterclaim was an abuse of discretion in light of
Hirshauer's bankruptcy judgment.
Hirshauer contends the circuit court abused its
discretion and failed to apply "long standing
bankruptcy law" by dismissing the Counterclaim in
violation of the stay imposed by her bankruptcy.
According to her, the court did not have the right to
grant relief. She further alleges the bankruptcy court
had previously determined there was no fraudulent

23

conveyance and thus, the circuit court lacked
jurisdiction to decide how the property should be
partitioned.
It is well established that the filing of a petition
of bankruptcy triggers automatic stay to all legal
proceedings "to recover a claim against the debtor
that arose before the commencement of the
[bankruptcy case]." 11 U.S.C. ss 362(a)(1). The
purpose of the automatic stay is
To give the debtor a "breathing spell" from
his/her creditors, to allow time to formulate a
repayment or reorganization plan, and to prevent a
chaotic and uncontrolled scramble for the debtor's
assets in a multitude of uncoordinated proceedings
in different courts, by ensuring that all claims against
the debtor, other than those exempted from the stay,
will be brought in single forum.
Klass v Klass, 377 Md. 13, 22 (2003). The stay,
however, terminates when the case is closed. 11
U.S.C. ss 362(c)(1).
Hirshauer's involuntary bankruptcy
proceedings were initiated in June, 2007 and ended
on July 6, 2011. The action to sell or partition the
Property began in 2016 and the court's dismissal of

24

the Counterclaim and grant of summary judgment
occurred on September 12, 2017. As such, the
court's actions did not violate the bankruptcy stay.
Hirshauer's argument that the court was
without jurisdictino to hear the partition case
because the Bankruptcy Court had previously held
there was no fraudulent conveyance of the Property
is without merit. She contends the matter was
exclusively within the Bankruptcy Court's purview.
We disagree and hold this issue was previously
determined in the Appeal of the Fraudulent
Conveyance. There, we held "[t]he circuit court
properly denied Ms. Hirshauer and the Gerbens'
motion to reconsider" because the judgment liens
obtained by the Clemons before the initiation of
Hirshauer's involuntary bankruptcy proceedings
"were merely stayed, first by order of [the] court, and
then by the bankruptcy proceedings." "[T]he
discharge of [] Hirshauer in bankruptcy neither
discharge[d] her in rem liability nor, in any way,
affect[ed] the personal or in rem liability of third
parties" and "the judgment liens remain [ed]
effective...the bankruptcy proceedings ha[d] no res

25

/9)61,36

judicata effect with respect to the liens." Here,
Hirshauer attempts to disguise her former arguments
by framing them within the context of the partition
action. We hold the court's action in determining
whether partition or sale was appropriate was fully
within its jurisdictional powers as previously
determined by this Court.
II.

Whether the court erred in dismissing or, in the
alternative, granting summary judgment
against the Counterclaim

1.

The court did not err in dismissing the
Counterclaim as it related to Judge Ross
When reviewing a trial court's decision to

dismiss "[w]e examine whether the complaint,
assuming all well-pleaded facts and reasonable
inferences drawn therefrom in a light most favorable
to the pleader, states a legally sufficient cause of
action." Reichs Ford Road Joint Venture v State Road
Com'n of the State Highway Admin., 388 Md. 500, 509
(2005). We will affirm a dismissal "only if the alleged
facts and permissible inference...would, if proven,
nonetheless fail to afford relief to the plaintiff."
Ricketts v Rickets 393 Md. 479, 492 (2006). We review

26

de novo a court's granting of a motion to dismiss.
Advance Telecom Process LLC v DSFederal, Inc., 224
Md. App. 164, 173 (2015).
In the case at bar, the Counterclaim alleged
Judge Ross' actions while presiding over the
Fraudulent conveyance Action aggrieved Hirshauer.
She claimed Judge Ross acted without jurisdiction in
the Fraudulent Conveyance Action; committed a
civil conspiracy in ordering the issuance of the writs;
wrongly consulted with an attorney regarding
whether writs of execution should be issued; illegally
stayed the enforcement of the writs of execution
issued in the Levy Actions; violated the automatic
stay and discharge imposed by Hirshauer's
bankruptcy; failed to follow service of process
requirements under Maryland law; "convicted
Hirshauer of her fraud charge with out [sic] due
process"; and wrongly ordered and held a sheriff's
sale to sell Property.
Normally acts performed by a judge within the
course of his or her judicial duties are entitled to
judicial immunity "regardless of the nature of the tort
and even where the suit against the judge alleged
that he acted in bad faith, maliciously, or corruptly."

27

6/3.

Parker v State, 337 Md. 271, 284-85 (1995). As the
United States Supreme Court stated in Bradley v
fisher, judicial immunity applies to judicial acts
"however erroneous the act may have been, and
however injurious in its consequences it may have
proved to the plaintiff." 13 Wall. 335, 347 (1872). Such
immunity is necessary for the proper functioning of
our judicial system because "absolute immunity is
needed to forestall endless collateral attacks on
judgments through civil actions against the judges
themselves." Parker, 337 at 287 (citing Bradley, 13
Wall. At 348).
The determination of "[w]hether a function
qualifies for absolute immunity is made objectively
and not subjectively." D'Aoust v Diamond, 424 Md.
549, 599 (2012). Where the act "is a function
normally performed by a judge" and the parties
"dealt with the judge in his judicial capacity," judicial
immunity will apply. Id. (citing Parker, 337 Md. At
290).
In the case at bar, Judge Ross' actionsdeciding motions, issuing stay orders, rendering
judgment, and ordering and holding a judicial sale

28

qPx /33

of property - are clearly judicial functions and thus
are entitled to immunity.
Hirshauer nevertheless argues that judicial
immunity does not apply because she had not been
served process and, thus, the circuit court had not
jurisdiction. While it is true a judge will lose "absolute
judicial immunity when he or she knowingly acts in
the clear absence of all jurisdiction over the matter,"
Id., "the circuit courts...[e]ach ha[ve] full commonlaw and equity powers and jurisdiction in all civil and
criminal cases with its county[.]" Md. Code, Courts &
Jud. Pro., ssl -501. Thus, even had Hirshauer not been
sufficiently served as to allow the circuit court to
exercise proper jurisdiction over her, Judge Ross did
not act in "clear absence of all jurisdiction"
equivalent to a probate court trying a criminal trial.
See Bradley, 80 U.S. at 352 (stating, as an example, a
"clear absence of all jurisdiction" is present if a
probate court were to try a criminal trial).
Moreover, in Hirshauer's previous appeal to this
Court, we affirmed the circuit court's decision in
which it found Hirshauer was properly served. Again,
she reframes an issue previously decided.

29

2.

The court did not err in granting summary
judgment on the Counterclaim as it related to
AQ Holdings and Schumm.
We analyze a court's granting of a motion for

summary judgment de novo. Dasheill v Meeks, 396
Md. 149, 163 (2006). "[Me independently review the
record to determine whether the parties properly
generated a dispute of material fact and, if not,
whether the moving party is entitled to judgment as
a matter of law." United States Auto. Ass'n v Riley,
393 Md. 55, 67 (2006). Factual disputes are resolved
in favor of the non-moving party. Dashiell, 396 Md.
At 163. "Only when there is an absence of a
genuine dispute of material fact will [we] determine
whether the court was correct as a matter of law."
Id.
The doctrine of res judicata "precludes the
same parties from relitigating a lawsuit based upon
the same cause of action because the second
lawsuit involves a judgment that is conclusive, not
only as to all matters that have been decided in the
original suit, but as to all matters which with propriety
could have been litigated in the first suit." Bank of
New York Mellon v Georg, 456 Md. 616, 625 (2017).

30

/9)6 i35'

Relitigation is precluded if:
The parties in the present litigation are the
same or in privity with the parties to the earlier
action:
The claim in the current action is identical to
the one determined in the prior adjudication;
and
There was a final judgment on the merits in the
precious action.
Id. At 626
"A final judgment is any judgment or order
which is so far final as to determine and conclude
the rights involved in the action, or to deny to the
party seeking redress by the appeal the means of
further prosecuting or defending his rights and
interests in the subject matter of the proceedings."
Grimberg v Marth, 338 Md. 546, 551 (1995).
We have held that, under Maryland law, "[t]he
ratification of a sale is res judicata as to the validity of
the sale...hence its regularity cannot be attacked in
a collateral proceeding." Chaires v. Chevy Chase
Bank, F.S.B., 131 Md. App 64, 77 (2000). Successors to
an estate or interest will be held to be in privity to a

31

person to a prior judgment where the succession
occurred subsequent to the bringing of the suit in
which the judgment was rendered. See Walzi v King,
113 Md. 550 (1910).
In the present case, AQ Holdings is in privity
with the Clemons as it relates to the Ratification
because it was deeded the Property after the
ratification of the sale. Accordingly, Hirshauer's
appeal of the Ratification and our dismissal of that
appeal rendered the Ratification a final judgment.
The Counterclaim at issue in this appeal sought
to attack the validity of the Ratification. Hirshauer
alleges deficiencies of service in the initial
attachment of the Property. She also asserts the
collection efforts including the sheriff's sale of the
Property to AQ Holdings, were a violation of the
discharge of her debts in bankruptcy pursuant to 11
U.S.C. ss524 because the Bankruptcy Court's ruling
necessitated the finding that the Gerbens owned the
Property and, therefore, her conveyance of the
Property to the Gerbens was valid. Further, she
contends the Clemons illegitimately obtained writs in
the Levy Actions and that there was no pre-

32

4/d /37

bankruptcy judgment from the Circuit Court for
Queen Anne's county voiding the conveyance 9f
the Property from herself to the Gerbens, no valid
order to the clerk to issue any writs, nor notice to the
Sheriff to levy the Property.
However, Hirshauer brought or could have
brought these claims as defenses to the Ratification
in the prior lawsuit. Hirshauer is now barred from
brining these claims as her appeal of the Ratification
was dismissed. As such, the court did not err in
dismissing the Counterclaim because it is barred by
the doctrine of res judicata.
The validity of a sale may be attacked in cases
of fraud or illegality pursuant to Maryland Rule 2-535,
Chaires v Chevy Chase Bankr, F.S.B., 131 Md. App.
64, 77 (2000). Hirshauer next argues Maryland Rule 2535 allows her to collaterally attack the Fraudulent
Conveyance Judgment in separate litigation "with
no time limit" on the basis of fraud, mistake, or
irregularity. She cites Maryland rule 2-535(b), which
states, "[o]n a motion of any party filed at any time,
the court may exercise revisory power and control
over the judgment in case of fraud, mistake, or
irregularly." Hirshauer, however, didnt file a motion

33

4/03r

with the court pursuant to Maryland rule 2-535(b).
Further, "ffludgments of a legally organized
judicial tribunal, proceeding within the scope of its
powers, and possessing the requisite jurisdiction over
the subject matter of the suit and the parties thereto,
whether correct or erroneous, cannot be called in
question by the parties or privies in any collateral
action or proceeding." Klein v Whitehead, 40 Md. ,20
(1978). A collateral attack on a judgment "is an
attempt to impeach the judgment by matters dehors
the record, before a court other than the one in
which it was rendered, in an action other than that in
which it was rendered; an attempt to avoid, defeat,
or evade it, or deny its force and effect, in some
incidental proceedings not provided by law for the
express purpose of attacking it." Id.
In Sheppard v Nabb, we considered whether
the application of the doctrine of collateral attacks
was appropriate where claims were brought against
parties who were not parties to the prior proceeding,
84 Md. App. 687, 693-94 (1990). In that case, the
defendants previously sued the plaintiff, a trustee, for
wrongdoing relating to a trust's administration. Id. At

34

